<html>
<title> - CLOSING THE LANGUAGE GAP: IMPROVING THE FEDERAL GOVERNMENT'S FOREIGN LANGUAGE CAPABILITIES</title>
<body><pre>[Senate Hearing 111-958]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-958
 
                       CLOSING THE LANGUAGE GAP: 
    IMPROVING THE FEDERAL GOVERNMENT'S FOREIGN LANGUAGE CAPABILITIES 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-497 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
              Jessica Nagasako, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                      Aaron H. Woolf, Chief Clerk



























                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                        Thursday, July 29, 2010

David C. Maurer, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................     3
Jeffrey R. Neal, Chief Human Capital Officer, U.S. Department of 
  Homeland Security..............................................     5
Nancy Weaver, Director, Defense Language Office, U.S. Department 
  of Defense.....................................................     6
Hon. David S. Chu, Former Under Secretary for Personnel and 
  Readiness, U.S. Department of Defense..........................    15
Richard D. Brecht, Executive Director, Center for Advanced Study 
  of Language, University of Maryland............................    16
Dan E. Davidson, President, American Council for International 
  Education: ACTR/ACCELS, and Elected President of the Joint 
  National Committee for Languages (JNCL)........................    18

                     Alphabetical List of Witnesses

Brecht, Richard D.:
    Testimony....................................................    16
    Prepared statement...........................................    62
Chu, Hon. David S.:
    Testimony....................................................    15
    Prepared statement...........................................    58
Davidson, Dan E.:
    Testimony....................................................    18
    Prepared statement...........................................    82
Maurer, David C.:
    Testimony....................................................     3
    Prepared statement...........................................    29
Neal, Jeffrey R.:
    Testimony....................................................     5
    Prepared statement...........................................    41
Weaver, Nancy:
    Testimony....................................................     6
    Prepared statement...........................................    44

                                APPENDIX

Background.......................................................    98
Colleen M. Kelley, National President, National Treasury 
  Employees Union, prepared statement............................   106
Phil McKnight, Ph.D., Chair, School of Modern Languages, Georgia 
  Institute of Technology, prepared statement....................   110
Questions and responses for the Record from:
    Mr. Maurer...................................................   114
    Mr. Weaver...................................................   117
GAO report referenced by Senator Akaka...........................   121


                       CLOSING THE LANGUAGE GAP:
    IMPROVING THE FEDERAL GOVERNMENT'S FOREIGN LANGUAGE CAPABILITIES

                              ----------                              


                        THURSDAY, JULY 29, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our witnesses. Aloha and thank you so 
much for being here today.
    Today's hearing will examine the Federal Government's 
foreign language capabilities and needs, particularly at the 
Department of Homeland Security (DHS) and the Department of 
Defense (DOD). We will examine these Departments' language 
efforts and explore how best to help meet the challenges of 
strengthening foreign language skills.
    Foreign language skills are necessary to provide vital 
services to people with limited English abilities. Because of 
the rich cultural and linguistic diversity in my home State of 
Hawaii, I understand well the need to communicate about 
disaster relief, social services, and other government programs 
in a variety of languages.
    Understanding foreign languages is also vital to our 
economic security as Americans compete in the global 
marketplace. According to the Committee for Economic 
Development, American companies can lose an estimated $2 
billion each year due to inadequate cross-cultural skills.
    Moreover, foreign language proficiency and cultural 
understanding are essential to protecting our national 
security. Threats to our national security are becoming more 
complex, interconnected, and unconventional. These evolving 
threats have increased Federal agencies' needs for employees 
proficient in foreign languages.
    More agencies are coordinating and collaborating with other 
countries to advance their missions abroad. Both the 
Departments of Homeland Security and Defense partner with other 
nations to share information or conduct joint operations. The 
Commission on the Prevention of Weapons of Mass Destruction 
(WMD) Proliferation and Terrorism as well as the Project on 
National Security Reform have concluded that foreign language 
proficiency is essential to protecting our Nation.
    The shortage of language-proficient Federal workers, as 
well as Americans overall, is not a new phenomenon. More than 
three decades ago, the President's Commission on Foreign 
Language and International Studies recognized it was a serious 
and growing problem.
    Over the years, the Government Accountability Office (GAO) 
has released several reports revealing language shortfalls that 
harm government effectiveness and undermine national security.
    In 2002, GAO reported that several key national security 
agencies had shortages in translators and interpreters, as well 
as diplomats and intelligence specialists with critical foreign 
language skills. GAO found that shortages in language speakers 
at the FBI hindered criminal prosecutions. Additionally, 
diplomatic and intelligence officials' inadequate language 
skills weakened the fight against terrorism and drug 
trafficking and resulted in less effective representation of 
U.S. interests abroad.
    In June 2009, GAO found that the DOD had made progress on 
increasing its language capabilities, but lacked a 
comprehensive strategic plan and standardized methodology to 
identify language requirements, which made it difficult for DOD 
to assess the risk to its ability to conduct operations.
    Additionally, this Subcommittee held a hearing on a 2009 
GAO report finding that almost one-third of all State 
Department positions abroad are filled by Foreign Service 
Officers (FSOs) who do not meet the job's language 
requirements. What troubles me is that 73 percent of FSOs 
serving in Afghanistan and 57 percent serving in Iraq do not 
meet the language proficiency requirements of their positions.
    Today, GAO is releasing a report\1\ that finds that the DHS 
has done little to understand its foreign language 
capabilities. DHS cannot identify its language shortfalls and 
does not know how these shortfalls impact its ability to meet 
the Department's mission.
---------------------------------------------------------------------------
    \1\ The GAO report referenced by Senator Akaka appears on page 121.
---------------------------------------------------------------------------
    After the attacks of September 11, 2001, Congress and the 
Administration took action to address language shortages. I 
fear that these efforts, while helpful, are not enough to meet 
this pressing need, and that we are failing to create a long-
term solution to the Nation's foreign language demands.
    I firmly believe that without sustained leadership and a 
coordinated effort among Federal agencies, State and local 
governments, the private sector, and academia, language 
shortfalls will continue to undermine our country's national 
security, economic growth, and other priorities. We need to be 
more proactive in addressing this issue.
    I introduced the National Foreign Language Coordination Act 
to implement key recommendations from the 2004 National 
Language Conference. This bill would establish a National 
Foreign Language Coordination Council, chaired by a national 
language adviser, to develop a national foreign language 
strategy that is comprehensive, integrated across agencies, and 
addresses both long-term and short-term needs. This council 
would provide the sustained leadership needed to address 
foreign language shortfalls in government as well as academia 
and the private sector.
    The Bush Administration's National Security Language 
Initiative was a good first step toward coordinating efforts 
among the Departments of Defense, Education, and State, and the 
intelligence community to address our national security 
language needs. However, we must do more and expand this 
effort.
    I look forward to hearing from our witnesses on how the 
Departments of Homeland Security and Defense are addressing 
their language needs and exploring short-term and long-term 
solutions to increase the number of foreign language speakers 
in the Federal Government.
    I again would like to welcome our first panel to the 
Subcommittee today: David Maurer, Director of the Homeland 
Security and Justice Team at the Government Accountability 
Office; Jeffrey Neal, Chief Human Capital Officer at the 
Department of Homeland Security; and Nancy Weaver, Director of 
the Defense Language Office at the Department of Defense.
    As you know it is the custom of the Subcommittee to swear 
in all witnesses, and I would ask you to stand and raise your 
right hand. Do you solemnly swear that the testimony you are 
about to give to the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Maurer. I do.
    Mr. Neal. I do.
    Ms. Weaver. I do.
    Senator Akaka. Thank you. Let the record note that our 
panelists answered in the affirmative.
    Before we start, I want you to know that your full 
statements will be placed in the record.
    Mr. Maurer, will you please begin with your statement?

 TESTIMONY OF DAVID C. MAURER,\1\ DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good afternoon, Mr. Chairman. I am pleased to 
be here today to discuss our recently completed work on 
improving the Federal Government's foreign language 
capabilities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maurer appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    As you know, foreign language capabilities are a key 
element to the success of diplomatic, military, law 
enforcement, and intelligence missions. Over the past several 
years, GAO has completed nearly two dozen reports and 
testimonies on the Federal Government's efforts to enhance its 
foreign language capabilities. My statement today summarizes 
the findings from our recent reviews of foreign language 
programs at the Department of Homeland Security, the Department 
of Defense, and the State Department. While the specifics of 
each review varied, a key theme that emerged was the importance 
of assessing needs, assessing capabilities, and addressing 
shortfalls.
    I will start with DHS. Today we are issuing our report on 
DHS to you and Senator Voinovich. We found that the men and 
women of DHS encounter a wide array of languages and dialects 
under sometimes difficult and dangerous circumstances. DHS is 
literally on our Nation's borders, so ensuring the Department 
has the necessary foreign language skills to carry out its 
various missions is crucial.
    What we found during our review was not encouraging. On the 
plus side, DHS has a variety of foreign language programs and 
activities. For example, new Border Patrol agents are required 
to learn rudimentary Spanish, and the Coast Guard has conducted 
a series of foreign language needs assessments. However, on the 
whole, we found that DHS has taken limited action to assess its 
foreign language needs and capabilities and identify potential 
shortfalls. There is no department-wide guidance, no mention of 
foreign language in the first Quadrennial Homeland Security 
Review, and no reference to foreign language in the 
Department's strategic human capital plan. DHS has not 
comprehensively assessed its foreign language needs and 
capabilities and does not know whether its current array of 
programs adequately addresses the Department's various mission 
needs. In its response to our report, DHS agreed with our 
findings and has actions underway to address these 
deficiencies.
    I will now briefly summarize the findings from our work at 
the Department of Defense and the State Department. Over the 
past few years, DOD has placed greater emphasis on improving 
the foreign language proficiency of U.S. forces. DOD views 
foreign language capabilities as a mission enabler and an 
important element of its broader counterinsurgency strategy. In 
June 2009, we reported that DOD had made progress in 
transforming its language capabilities but lacked a 
comprehensive strategic plan to guide its efforts. Some of the 
Department's foreign language objectives are not measurable, 
linkages between goals and funding priorities are not clear, 
and DOD has not identified the total cost of its planned 
efforts. DOD also lacked a complete inventory of its foreign 
language capabilities and a common approach for determining 
requirements. Since our report, DOD has made some progress, but 
has not completed its efforts to address our recommendations.
    In September 2009, we found that the State Department's 
ongoing efforts to meet its foreign language requirements have 
yielded some results, but have not closed persistent gaps in 
foreign language-proficient staff. As you noted, we found that 
31 percent of Foreign Service officers did not meet the foreign 
language requirements for their overseas positions, with even 
higher shortfalls in such key languages as Arabic and Chinese. 
State has several initiatives underway to address the 
shortfalls, including language training and pay incentives, but 
has been unable to close these gaps, in part due to the lack of 
a comprehensive strategic approach. Since our report, State has 
made progress but still lacks a plan with measurable goals, 
objectives, and milestones.
    Looking across all three Departments, there are some common 
lessons that can help guide ongoing efforts to improve foreign 
language capabilities across the Federal Government: First, 
comprehensively assess foreign language needs and capabilities; 
second, align and, where appropriate, develop foreign language 
programs to address shortfalls; third, ensure that plans are 
linked to resources and strategic and workforce planning 
processes; and, finally, develop mechanisms for measuring 
progress along the way. These efforts will help Federal 
agencies enhance their foreign language capabilities and more 
efficiently and effectively carry out their missions in an 
increasingly interdependent world.
    Mr. Chairman, this concludes my statement. I look forward 
to answering your questions.
    Senator Akaka. Thank you very much, Mr. Maurer.
    Mr. Neal, will you please proceed with your statement?

 TESTIMONY OF JEFFREY R. NEAL,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Neal. Chairman Akaka, thank you for the opportunity to 
speak to you regarding the Department of Homeland Security's 
efforts related to the foreign language needs of the workforce. 
My name is Jeff Neal, and I am the Chief Human Capital Officer 
for DHS. It is a pleasure to appear before you again, and I 
continue to appreciate your leadership on this and other human 
capital matters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Neal appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    DHS has a variety of foreign language needs, from providing 
emergency response services to persons with limited English 
proficiency, to leading investigations overseas, and 
interviewing foreign nationals on interdicted vessels. The 
Department's mission touches many individuals in the United 
States who may lack English language skills. In addition, DHS 
has some 2,200 employees stationed abroad; as such, the ability 
to communicate effectively is a topic of vital importance to 
us. Our operating and support components determine their 
foreign language needs, requirements, and capabilities and have 
taken actions to address gaps in order to meet the many mission 
needs of DHS. This issue, like the balanced workforce issue we 
discussed in the hearing you conducted in May, reinforces the 
need for a consistent and repeatable process for workforce 
planning, assessment, and oversight at the Department level.
    While each component is best situated to identify its 
operational requirements for foreign languages on a regular 
basis, the Office of the Chief Human Capital Officer can help 
by coordinating the overall strategy, providing oversight, and 
identifying best practices.
    Certain components, such as U.S. Customs and Border 
Protection, do require proficiency in foreign language, most 
frequently Spanish. These components screen candidates for 
employment for their proficiency in, or ability to learn, 
languages. At the Transportation Security Administration (TSA), 
foreign language ability is considered a collateral duty for 
transportation security officers, and employees self-certify 
their proficiency in language other than English.
    Beyond workforce planning, there have been a number of 
other department-wide efforts pertaining to foreign language 
capabilities. The DHS Office for Civil Rights and Civil 
Liberties (CRCL), enforces the provisions of Executive Order 
13166, which requires Federal agencies to examine the services 
they provide and implement a system by which people with 
limited English proficiency can meaningfully access services, 
without unduly burdening the fundamental mission of the agency. 
Far from burdening the DHS mission, language access for those 
with limited proficiency advances homeland security, enabling, 
for example, more effective and efficient screening and 
immigration processing at our Nation's ports of entry and fair 
administration of customs rules and citizenship benefits. It is 
also essential in areas such as detention and asylum 
adjudication. CRCL provides technical assistance to DHS offices 
and components on fulfilling the language access requirements.
    I understand the importance of identifying language 
requirements and tracking capabilities as outlined in the GAO 
report. Going forward, the Department will make the following 
actions:
    First, I will ensure that DHS-wide language policies and 
processes are incorporated into our Human Capital Strategic 
Plan. Secretary Janet Napolitano directed a complete revision 
of the Human Capital Strategic Plan several weeks ago, and we 
anticipate publishing it in early fall.
    Second, my staff will work with the DHS Office of 
Intelligence and Analysis to identify best practices and to 
ensure the coordination of our intelligence community 
responsibilities for the management of DHS foreign language 
capabilities.
    And, finally, I will work with CRCL to establish a DHS 
Joint Language Task Force. The task force will identify 
component language requirements and assess the necessary 
skills; recommend a system so that the Department can track, 
monitor, record, and report language capabilities; and identify 
the functional office responsible for managing DHS-wide 
language capabilities.
    This is an overview of the status of our foreign language 
capabilities, and I would be happy to answer any questions you 
may have.
    Senator Akaka. Thank you very much, Mr. Neal.
    Ms. Weaver, will you please proceed with your statement?

   TESTIMONY OF NANCY WEAVER,\1\ DIRECTOR, DEFENSE LANGUAGE 
               OFFICE, U.S. DEPARTMENT OF DEFENSE

    Ms. Weaver. Thank you, Mr. Chairman, for the opportunity to 
speak with you today on this very important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Weaver appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    The Department is building a force with the language and 
regional proficiency needed to meet the challenges of a complex 
security environment. Experience has proven that the ability to 
communicate and understand local populations, allies, and 
coalition partners while demonstrating respect for their 
cultures are key enabling factors for mission success.
    The 2005 Defense Language Transformation Roadmap began a 
department-wide effort to expand and develop these 
capabilities. Through specific actions, we have improved the 
oversight and management of the Defense Language Program, 
created policies and programs to increase language capability 
and enhance training. We have now moved beyond the roadmap. 
Today we are finalizing our strategic direction, redefining 
processes for generating language and regional requirements, 
and adapting policies and programs to ensure we have the right 
mix of language and regional skills.
    Currently the Department is reviewing a comprehensive 
strategic plan that provides a systematic way ahead for 
identifying, developing, and sustaining, language and regional 
capabilities. The plan builds on the transformational direction 
and the priorities laid out with the language roadmap.
    One further effort now underway is a capabilities-based 
assessment which will provide improved and standardized 
processes Combatant Commands can use to determine and 
prioritize their language and regional requirements. Knowing 
these requirements relative to our existing capability allows 
the Department to identify gaps and leverage programs and 
resources to fill those gaps. The current efforts span the 
entire human capital management system and include heritage 
recruiting initiatives, Service Academy and ROTC language 
training and immersion programs, monetary incentives, and 
increased pre-deployment and sustainment training opportunities 
for the language professional as well as the general purpose 
forces.
    We are also looking beyond the Department of Defense for 
creative solutions to build a more language-enabled workforce. 
Representatives from the Departments of State, Defense, and 
Education and the Office of the Director of National 
Intelligence meet routinely to share information on new 
initiatives and best practices.
    Our ongoing challenge is that language and regional 
proficiency take time to develop and to sustain. And even when 
we devote that time, the next threat to security will likely 
require different languages and cultural knowledge in an 
entirely different region of the world. While we might not be 
able to predict with a high degree of accuracy where we will be 
and what languages we will need, we are preparing by building a 
program that is flexible and adaptable to meet tomorrow's 
challenges as well as today's requirements.
    Thank you for your continued support.
    Senator Akaka. Thank you very much, Ms. Weaver.
    Mr. Neal, as you know, I have been concerned about DHS's 
overall progress on your comprehensive management integration. 
Your statement notes that the Department is considering 
implementing a broader, more consolidated approach to assessing 
and planning for the Department's language needs. Would you 
provide more detail about your plans?
    Mr. Neal. Mr. Chairman, what we are doing right now is 
revising our overall Human Capital Strategic Plan. The document 
that we have is a rather voluminous document. It is about 50 
pages, which I do not know if everyone had actually even read 
who might be interested in human capital issues in the 
Department. A lot of folks view it was a very long document 
that is long on words and short on action. So what Secretary 
Napolitano has directed is a complete revision of the plan. She 
wants it reduced to a much more concise document. She wants to 
highlight several key areas that are of great interest to her. 
And rather than having this plan be a document that is signed 
by the Chief Human Capital Officer, she wants to put her name 
on it and the strength and authority of her office behind that 
Human Capital Plan.
    One aspect of it will be foreign language proficiency and a 
requirement to do a number of things to improve our oversight 
ability and our planning ability regarding language 
proficiency.
    You may recall from our discussion in May regarding a 
balanced workforce strategy that what we perceived as an 
overall weakness in the Department is workforce planning. We 
really do not have the capacity department-wide for workforce 
planning that we need, and this will also be an aspect of this 
Human Capital Strategic Plan.
    As I said, I think we will issue this plan at the latest in 
early fall. We may even be able to have the plan published 
under the Secretary's signature in late summer. So I think we 
are going to be making some progress there.
    We are also attaching specific metrics to the plan, so we 
will have a set of measures that we will be looking at on a 
regular basis and reporting to the Secretary on a quarterly 
basis.
    Senator Akaka. Thank you, Mr. Neal. In your testimony you 
stated that you would work with the Department's Civil Rights 
and Civil Liberties Office to establish a DHS Language Task 
Force to identify language requirements and assess the 
Department's language capability. Would you please tell us more 
about this task force, including the timeline for setting it 
up?
    Mr. Neal. The task force has not been established yet. 
Margo Schlanger, our Officer for Civil Rights and Civil 
Liberties, and I are going to be establishing it within the 
next few weeks, and we will be giving them a charter to 
actually identify component language requirements and the 
skills and to see how we should manage this issue from a 
department-wide basis. Right now, as I said, it is really 
managed at the component level, and we do not necessarily think 
that we need to be changing where we identify the requirements, 
but how we track them needs to be more consistent. We need to 
have some process in place where we are able to determine what 
requirements we have and who actually has those language 
proficiencies. Right now, if you said identify who can speak 
Spanish in the Department of Homeland Security, I could not do 
that except by going to components and having them go out and 
ask people questions. And that is not really a good way to do 
this.
    So that is going to be a part of what we will look at with 
this task force. How do we manage this? How do we keep track of 
it? And when we need to identify who has what language 
proficiency, how do we do that quickly and efficiently? Right 
now, I do not think we have the capacity to do that.
    Senator Akaka. Mr. Maurer, DOD has officials designated as 
senior language authorities within the Office of the Secretary, 
its military services, and other DOD components to provide 
senior-level guidance regarding the Department's language 
transformation effort. Do you think it would be beneficial to 
have similar language officials at DHS and within its 
components?
    Mr. Maurer. Mr. Chairman, I think the most important thing 
for DHS is to ensure that they have the capability at the 
Department level to monitor and assess and bring some coherence 
to the capabilities and the needs assessments that are being 
conducted at the component or the office level. Whether that 
takes the shape of the kind of system that DOD has in place I 
am a bit agnostic on, but I think the most important thing is 
to make sure that there is accountability built into whatever 
structure that DHS is going to be providing, and that this 
accountability is grounded in a clear understanding of the 
Department's needs as well as what its capabilities are.
    If you are going to have accountability, you have to have a 
clear understanding of what you have accountability over.
    Senator Akaka. Ms. Weaver, despite the numerous challenges 
faced by DOD to improve its language proficiency and the 
challenges that remain, I am pleased by the efforts the 
Department has taken and the importance it has placed on this 
problem.
    One area I am interested in learning more about is DOD's 
efforts to coordinate with other agencies. Can you provide an 
update on DOD's coordination efforts with other agencies?
    Ms. Weaver. There is a formal working group that has been 
established with representatives from the Departments of 
Defense, Education, State, and the Office of the Director of 
National Intelligence. They meet routinely, and they have come 
up with goals and objectives that they want to work together 
with to push forward this year. There are five objectives, and 
that is, to coordinate reporting on outcomes in a single annual 
report; develop mechanisms for reporting student participation; 
share outreach of programs; resume collaborative efforts from 
the National Security Language Initiative; and develop a 
research agenda.
    By keeping this communication open, we can keep the 
initiatives that we started together previously going and add 
new initiatives, and this collaboration, we think, is very 
important.
    Senator Akaka. Thank you. As you know, Ms. Weaver, one of 
the key recommendations that came from the 2004 National 
Language Conference was to establish a council that could 
facilitate coordination and collaboration among all sectors. 
Through the National Security Language Initiative, DOD has 
experienced this on a smaller scale. Has DOD found coordination 
and collaboration with the Departments of State and Education, 
and the intelligence community beneficial to increase the 
number of language speakers?
    Ms. Weaver. The initiatives that we have worked together 
and independently on have increased the number of high level 
language speakers that are available to all government 
agencies. Two programs that we have participated in is the 
Flagship Program, which is a program that increases the level 
of proficiency level taught among the colleges and 
universities. Our goal was to increase participation to 2,000. 
We think we are going to make that goal by the end of this 
academic year.
    The other initiative was the National Service Language 
Corps, which is an all-Federal Government initiative. We have a 
test program that we completed. The initial program was to set 
up 500 participants. We are close to 1,400 participants. These 
are Americans with a high level of language proficiency and 
cultural background that have volunteered to serve the Nation 
in natural disasters, humanitarian reasons, and when their 
country calls.
    We have already done test programs with the Citizens 
Development Corps (CDC) and have deployed people to the Pacific 
Command (PACOM), as well as volunteers who have participated in 
the disaster at the Gulf Coast, and it is working well.
    Senator Akaka. Mr. Neal, are you familiar with DOD's 
coordination activities with the Departments of State, 
Education, and the intelligence community? And do you believe 
the Department could benefit from being part of it?
    Mr. Neal. Mr. Chairman, I am not familiar with that, and so 
I really could not answer whether it would be beneficial to be 
a part or not.
    Senator Akaka. And, of course, the whole idea is to get 
other agencies and departments together in dealing with this 
language process.
    Mr. Maurer, the White Paper from the 2004 National Language 
Conference laid out the critical steps needed to address the 
Nation's language skills shortfall. The first recommendation 
calls for strong and comprehensive leadership. Specifically, it 
called for a national language director to develop and 
implement a national language strategy and a coordination 
council to assist with implementing the strategy.
    To what extent do you see Federal agencies coordinating 
with each other to address the shortfall in languages? And in 
what way can this coordination be improved?
    Mr. Maurer. Mr. Chairman, in the field work that we 
conducted for the report that is being issued today on DHS 
foreign language, I am pleased to report we saw many good 
examples at the field level of ongoing coordination in the day-
to-day functions and operations of different components within 
DHS and across DHS and other departments. In doing our work at 
seven different locations within the United States, we saw that 
people who were working for Customs and Border Protection (CBP) 
or Immigration and Customs Enforcement (ICE), if they knew a 
foreign language, and the Federal Bureau of Investigations 
(FBI) or someplace else needed that person's help in an ongoing 
investigation or a mission, they would contact that person. 
They would work it out at the local level. So it seems to be 
functioning at that level, the day-to-day mission 
responsibilities.
    Once you get into the higher level, you are talking about 
working across departments and agencies in Washington, we have 
not formally assessed whether or not those coordination 
mechanisms are adequate or not. But generally speaking, there 
does not seem to be as developed or rich coordination 
mechanisms in this particular field as you see in other areas 
of interagency coordination. And it is certainly something that 
bears some additional review.
    Senator Akaka. Mr. Maurer, the GAO report on Limited 
English Proficiency (LEP) access to Federal programs found that 
the Federal interagency working group on LEP provides 
opportunities to enhance collaborative efforts among agencies. 
Would you please elaborate on how collaboration among the 
participating agencies has resulted in more efficient methods 
for ensuring that LEP persons have access to Federal programs?
    Mr. Maurer. Sure. I think one example is disaster relief 
initiatives. That is an area where Federal Emergency Management 
Agency (FEMA) within DHS has the lead. Before disasters happen, 
there is ongoing collaboration between FEMA and the Small 
Business Administration, and to some extent IRS as well, to 
make sure that they have collaborated and talked to one another 
on the plans and the best way to implement those plans in time 
of a natural disaster or some other emergency response 
initiative.
    Having those discussions in advance of a disaster has 
really enhanced their ability to respond on the ground in times 
of need. So, for example, in our work we found cases where the 
Small Business Administration (SBA) and FEMA were able to 
deploy more quickly and be able to reach out to the various 
limited English-proficiency customers during their times of 
need, and that is critically important.
    Senator Akaka. Ms. Weaver, I am just trying to find out 
whether there is anyone else that is working on this issue. The 
2004 National Language Conference called for a national 
language adviser in the Federal Government to lead efforts to 
address our Nation's language shortfalls. Is there anyone in 
the current Administration who is leading the Federal 
Government's language efforts?
    Ms. Weaver. No, sir, I am not aware of anyone.
    Senator Akaka. Ms. Weaver, the Department provides language 
pay incentives to its military personnel. Do you believe 
language pay is an effective tool to encourage personnel to 
identify, improve, and sustain language capabilities?
    Ms. Weaver. The Department of Defense pays foreign language 
proficiency pay to both military and civilian, and we have 
found this to be a very effective initiative to get individuals 
to identify their language capabilities, including those that 
do not work in positions that require a language. It is also an 
incentive to allow individuals to increase or sustain their 
language capabilities.
    Senator Akaka. Mr. Neal, as you know, through the Foreign 
Language Award Program, DHS provides language pay incentives 
for its Customs and Border Protection officers and agriculture 
specialists. The Department's fiscal year 2011 budget request 
seeks to reduce funding for this program in order to hire 
additional staff. While I support this goal, I oppose cutting 
language pay funding to do so.
    Given GAO's assessment that DHS could better assess its 
language programs and activities, could you please explain the 
Administration's reason for cutting Foreign Language Award 
Program funding in its budget request?
    Mr. Neal. There was a reduction in that program in the 2011 
budget request. I think that what CBP was trying to do at the 
time it formulated that budget request was balance the need for 
additional personnel and the need for language proficiency. A 
lot of CBP positions require basic language proficiency in 
another language--usually in Spanish--Border Patrol agents, 
Customs and Border Protection Officers (CBPOs), and 
agricultural specialists. And so I think their thinking at the 
time was that they needed additional personnel; this was a way 
to get resources for additional personnel. And their thinking 
was that it would not be adversely affecting the language 
capabilities because so many of the jobs actually require them 
as a fundamental part of qualifications for the job. And the 
basic language instruction is carried out at the academies, and 
so they were thinking that would be a way to get additional 
resources for staff.
    Senator Akaka. This question is for both Mr. Maurer and Mr. 
Neal. Foreign Language Award Programs vary by components at DHS 
and are limited in ways that do not necessarily relate to 
needed language skills. For instance, GAO used the example of 
ICE where award payments are limited by statute to employees 
who meet the definition of law enforcement officer. Therefore, 
for example, intelligence research specialists in ICE are not 
eligible to receive award payments for their language skills.
    How does this affect the components' ability to meet agency 
needs? Mr. Maurer.
    Mr. Maurer. Well, Mr. Chairman, I think absent an 
assessment of the foreign language needs and the foreign 
language capabilities, it is difficult to say what impact the 
Foreign Language Award Program has on the Department's overall 
ability to perform its mission. In the course of our audit work 
and doing this report, we heard a lot of demand for that kind 
of pay program in other parts of the Department. But we were 
not in a position to assess whether or not the existing program 
was adequate or whether or not it should be expanded or be 
reduced because we did not have a sense of what the Department 
actually needs in terms of its foreign language capabilities.
    Senator Akaka. Mr. Neal.
    Mr. Neal. I have to agree with Mr. Maurer on this, that 
absent more structure in the assessment process and a better 
ability to identify what specific language requirements we 
have, it is hard to assess whether or not Foreign Language 
Award Programs are highly effective in meeting the requirements 
or not because we do not have a good handle on all those 
requirements.
    We do know that in the places where this program has been 
used, it does appear to incentivize maintaining language 
proficiency, and as Ms. Weaver said, with DOD it incentivizes 
folks to actually disclose fluency in languages that they might 
not necessarily do because it would not be a requirement for 
their everyday work.
    But I think that the workforce planning part of this and 
knowing as quickly as possible what we need will help us tailor 
incentive programs to meet the requirements that we identify. 
But we have to identify them first.
    Senator Akaka. Mr. Maurer, GAO has recommended that both 
the Departments of Defense and State develop a comprehensive 
strategic plan with measurable goals and objectives to meet 
their foreign language requirements. What are the challenges to 
developing comprehensive strategic plans? And what 
recommendations would you make on developing strategic plans to 
meet agencies' language requirements?
    Mr. Maurer. Well, I think the first challenge for the 
Defense Department is the size and the breadth of the 
Department itself. DOD also has a warfighting mission as its 
primary mission, as well as a number of other missions and 
responsibility. So trying to get their arms around just the 
scope of what they do is a significant challenge.
    The State Department faces similar challenges, but one of 
the advantages that they have is they have had a longstanding 
process in place for building foreign language capabilities 
into their workforce planning needs, and that goes back many 
decades, because foreign language capability is absolutely 
essential to the conduct of foreign diplomacy. So they have the 
ability to do that.
    In terms of developing a strategic plan, I think one of the 
most challenging things is developing outcome-based metrics. In 
other words, how do you assess whether or not different aspects 
of the programs in place are actually working? It is easy to 
measure how much money you are spending on foreign language 
award pay programs, for example. It is much more difficult to 
come up with ways of measuring how effective those programs are 
at pursuing the overall objectives of enhancing foreign 
language capabilities. So I would encourage any department or 
agency to give a lot of thought of how are you going to measure 
that in the end.
    The other thing it needs to be tied into, of course, is the 
core mission. What are the most important core missions of the 
agency or department? And how are you going to structure 
foreign languages to help carry out those missions? One of the 
things we found in doing the work at DHS and other departments 
is that foreign language capabilities are not a separate entity 
in and of themselves, but they are, rather, a way to help 
enhance departments to carry out their key missions and 
responsibilities. So they should not be viewed in isolation.
    Senator Akaka. Ms. Weaver, you stated that DOD has drafted 
a strategic plan for its language and regional proficiency 
transformation, which is undergoing review and approval. 
Additionally, the different services within the Department have 
completed or are in the process of completing their own 
strategic plans.
    How is the Department integrating the Department's 
strategic plan with its component parts?
    Ms. Weaver. The services built their strategic plans based 
on the Defense Language Transformation Roadmap. Using the 
Defense Language Transformation Roadmap as their starting 
document as well as strategic guidance, defense strategic 
guidance that supports the national guidance, security 
guidance, we walked backwards working collaboratively with the 
services to describe the end state the entire Department needed 
as far as language and cultural and regional capabilities. And 
then we built the defense plan.
    The services will go in and always modify their plans 
during their review process, and it is an ongoing iterative 
process to keep the plans supporting one another.
    Senator Akaka. Thank you.
    Mr. Maurer, over the years GAO has reviewed many Federal 
agencies' language capabilities. You have addressed some of 
these, but I want to give you a final opportunity. What are the 
common recurring challenges that Federal agencies face? And 
what are your key recommendations on how to address them?
    Mr. Maurer. I think the fundamental challenge that the 
departments face is that, on the one hand, it is an 
increasingly interdependent, globalized world. There is an 
increasing need to have foreign language-capable staff across 
the breadth of the Federal Government. They need this 
capability to do a better job of delivering their services or 
carry out their missions.
    However, at the same time, they all have pretty tremendous 
operational responsibilities, and they are facing increasingly 
tight fiscal constraints. So trying to balance all of these 
things is going to be an increasingly difficult challenge going 
forward.
    So what we would suggest at GAO is that departments and 
agencies get their arms around their core mission needs for 
foreign language and get a good understanding of that, compare 
that with the actual capabilities that exist already within the 
departments, develop programs that are going to help address 
whatever gaps may exist, and then ensure that you have some 
kind of mechanism at the end of the day to know whether or not 
the programs are successful.
    I think another key element is enhancing collaboration and 
coordination both within departments as well as across 
departments. You are starting to see some sharing of foreign 
language translation capabilities within the intelligence 
community as a way to make the most of a scarce resource. There 
may be room for that in other parts of the foreign language 
realm as well as across the Federal Government. That is worth 
exploring.
    So at the end of the day, it is really understanding what 
do you need, what do you have, and how you are going to fill 
the gaps.
    Senator Akaka. Well, I want to thank the first panel of 
witnesses for their responses, and for trying to improve 
foreign language proficiency in the Federal Government. Without 
question, we all agree that there is a huge need to improve 
this area. We need to have more Americans proficient in other 
languages. I urge you to continue to improve foreign language 
capabilities at your agencies. I just want you to know that we 
stand ready to work with you. If we can do something 
legislatively that can help, we will work together to move 
forward. Thank you very much.
    Now I would like to welcome the second panel of witnesses. 
I would like to welcome the Hon. David Chu--it is so good to 
see you again--former Under Secretary for Personnel and 
Readiness at the Department of Defense.
    Also, Richard Brecht, Executive Director, Center for 
Advanced Study of Language, University of Maryland.
    And Dan Davidson, President of the American Councils for 
International Education, and elected president of the Joint 
National Committee for Languages.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses, so will you please rise and raise your right 
hand? Do you swear that the testimony you are about to give 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Chu. I do.
    Mr. Brecht. I do.
    Mr. Davidson. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the witnesses answered in the affirmative.
    I would like you to know that your full statements will be 
placed in the record. So, Dr. Chu, will you please proceed with 
your statement?

 TESTIMONY OF THE HON. DAVID S. CHU,\1\ FORMER UNDER SECRETARY 
    FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Mr. Chu. Mr. Chairman, it is a great privilege to appear 
before you again as a witness, and I want to thank you for your 
leadership on this important issue and the leadership of your 
Subcommittee. I am appearing, I should emphasize, in my 
personal capacity, attempting to speak from my experience at 
the Department of Defense on the ingredients that might argue 
for success in this arena. I should emphasize, therefore, that 
neither the Department of Defense nor my present institution 
necessarily share the views I am about to espouse in this 
hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chu appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I do believe if you look at the Department of Defense 
experience as a potential model for how more broadly the 
Federal Government might improve its language capabilities, 
there are three key ingredients.
    First of all, in defense, the top leadership set the goal. 
It was the personal goal of the Secretary of Defense, and the 
personal goal of his Deputy. They mandated that we develop a 
roadmap for how we might change the Department's stance in this 
regard. They also provided the resources--a key ingredient, as 
I know you would agree. And they had appointed senior language 
authorities to ensure the Department could act in this domain--
had a set of career leaders who were able to carry out the 
specific provisions of the roadmap to make sure we actually 
reach those goals.
    The second ingredient in defense success, in my judgment, 
was the willingness to think about new tools, new kinds of 
programs with which to enhance the Department's language 
capabilities. Most important, perhaps, was the commitment to 
recruiting native and heritage speakers of the so-called less 
commonly taught languages. The Army initiated a program to 
recruiting reserve status heritage speakers, the so-called 09 
Lima program, very successful in enhancing its Arabic capacity 
specifically. The Army also opened the door on other 
individuals legally residents in the United States, the so-
called Military Accessions Vital to the National Interest 
program, which has allowed it to recruit across a series of 
important languages.
    And the Department mobilized civil talent through the 
National Language Service Corps about which you heard in the 
earlier panel. I do think the willingness to think about new 
ways with which to secure language capacity is very important 
if there is to be broader Federal success.
    I think the third ingredient in the success of the Defense 
Department in enhancing its language capability was the fact 
that the notion of change, the notion of language as an 
important tool to military success was embraced by respected 
members of the career force, both military and civil. Four-star 
officers of the military services spoke up on the importance of 
language skill. The U.S. Marine Corps, for example, has now, as 
you know, assigned to every new entrant in its ranks a region 
of the world, expecting members of its corps to gain some 
cultural knowledge and perhaps some linguistic capacity.
    If one thinks about expanding to the Federal Government as 
a whole the kind of success the Defense Department has enjoyed, 
I do think it will be essential--and the Defense Department 
recognized this essentiality--to consider a national effort, 
not just a Federal effort, to engage the State and local 
communities, particularly because it is through K-12 language 
instruction that I believe the country can build a much better 
base for superior linguistic success.
    I do wonder whether it would be useful to include language 
as a specific objective, a specific element in the so-called 
Race to the Top grants that are now being awarded.
    And I also believe that it will be helpful to emulate what 
the Congress encouraged the Department to do with the 
construction of State roadmaps. Congress provided funds that 
DOD used that allowed three States--Oregon, Ohio, and Texas--to 
construct State roadmaps that gave the States some view of how 
they might improve their situation, why was language important, 
how might they do better. And I was very interested that Utah 
under then-Governor Huntman's leadership, emulated this 
practice at his instigation.
    I endorse, Mr. Chairman, the notion that you have advanced 
in your legislative proposal that, consistent with the 2004 
conference, a Federal council to coordinate Federal efforts 
would be an essential ingredient if the Federal Government as a 
whole is to do a better job preparing our Nation for the future 
linguistic challenges it will face. Thank you, and I look 
forward to your questions.
    Senator Akaka. Thank you very much, Dr. Chu.
    Dr. Brecht, will you please proceed with your statement?

 TESTIMONY OF RICHARD D. BRECHT,\1\ EXECUTIVE DIRECTOR, CENTER 
     FOR ADVANCED STUDY OF LANGUAGE, UNIVERSITY OF MARYLAND

    Mr. Brecht. Thank you, Mr. Chairman. It is my privilege to 
be here and speak in my personal capacity but based on over 
half a century of work in the government and in academe on 
behalf of language.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brecht appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    One frequently hears it is too hard for government 
organizations with critical language requirements to fully 
succeed in a world with thousands of languages and changing 
requirements by the day. This testimony is aimed at undermining 
this ready assumption, and as illustration, I would like to 
envision a future scenario that I would argue is realistic and 
within reach.
    A major earthquake rocks San Francisco and the surrounding 
area. Buildings are destroyed, power and water supply systems 
are damaged, people are panicked, emergency responders are 
overextended. Massive State and Federal assistance is deployed, 
from DHS--that is, FEMA, TSA, Coast Guard--DOD (National Guard 
and Military Reserves, even hospital ships). Adding to this 
crisis is the fact that intelligence sources have uncovered 
recent communications indicating a terrorist plot linked to the 
Abu Sayyaf in the Philippines to attack major transportation 
and communication channels.
    At the San Francisco and Oakland docks are recently arrived 
cargo ships and tankers from the Philippines, from Liberia, and 
Mexico. In addition, major drug traffickers are taking 
advantage of the situation and dramatically increasing activity 
along the Mexican Border, which, of course, brings government 
organizations to bear, including National Security Agency 
(NSA), National Counterterrorism Center (NCTC), FBI, Drug 
Enforcement Administration (DEA), Customs and Border Patrol. I 
ask excuse for the alphabet soup.
    Communication challenges arise on all sides. The National 
Foreign Language Coordinating Council Office in the Nation's 
capital has direct contact with the Federal senior language 
authorities and immediately alerts all elements to stand by for 
support and deployment. In collaboration with California State 
and local fusion centers, the office receives requirements from 
the affected areas and identifies language resources across the 
United States Government (USG), as well as in academe, 
industry, and heritage communities.
    Deployed are core language capabilities in DHS, DOD, 
Department of Justice (DOJ), Intelligence Community (IC), and 
other Federal components, all operating under comprehensive 
department- and agency-wide strategic plans that have 
identified requirements and have built organic capabilities in 
languages and cultures of anticipated high and surge 
requirements, on demand. Thus, FEMA has designated the San 
Andreas Fault as one of the areas eminently prone to natural 
disasters and has identified the languages that populations in 
the Bay area speak. In addition, permanent employees of the 
relevant DHS components have been trained and certified to 
proficiency levels required by the professional tasks they 
perform.
    Capabilities are shared. Each department's and agency's 
strategic plan and second language acquisition office has 
specific procedures to share resources within and across 
departments and agencies. The DOD is able to direct the Defense 
Language Institute Foreign Language Center in Monterey to 
provide language cadres of its qualified students to the area 
to assist speakers of Mandarin and any of the other two dozen 
languages taught at that institution. Watch List and other IC 
elements coordinate with TSA and Customs and Border Patrol, 
sharing language capabilities in Filipino, Illocano, Cebuano, 
in efforts to determine identities and track communications of 
new arrivals in San Francisco who are possible Abu Sayyaf 
members.
    Warehoused capabilities are drawn upon. The National 
Language Service Corps provides professionals across a range of 
disciplines with languages of San Francisco's smaller 
populations, like Hindi, Russian, Filipino, Korean, as well as 
even Samoan and Chamorro. The National Virtual Translation 
Center is tasked to provide translations of documents and 
announcements directed specifically at local non-English-
speaking populations in the area who are in need of, or able to 
provide, assistance.
    Capabilities are outsourced. Language Line Services, Inc., 
a private company based in Monterey, is contracted to provide 
online interpretation for emergency hotlines in the dozens of 
languages spoken in the city.
    Reach-back capabilities are brought to bear. The University 
of California-Berkeley National Heritage Language Resource 
Center is contacted by the National Council Office for advice 
on the heritage communities in the San Francisco area, their 
languages, available resources, and leadership.
    Such a scenario as this is within the realm of possibility, 
I would argue, and the capabilities it presupposes are largely 
available and within reach, if and only if, however, they can 
be brought to bear in the time of an emergency.
    Finally, a key player in this scenario, I would argue, is a 
national coordinated entity like the National Foreign Language 
Coordinating Council, which you have proposed. I believe that 
is a key element to bring these resources together in a 
national emergency.
    Senator Akaka. Thank you, Dr. Brecht.
    Dr. Davidson, will you please proceed with your statement?

 TESTIMONY OF DAN E. DAVIDSON,\1\ PRESIDENT, AMERICAN COUNCIL 
FOR INTERNATIONAL EDUCATION: ACTR/ACCELS, AND ELECTED PRESIDENT 
      OF THE JOINT NATIONAL COMMITTEE FOR LANGUAGES (JNCL)

    Mr. Davidson. Thank you, Mr. Chairman. I am grateful for 
the opportunity to appear before you today and present views, 
experiences, and research results on the current state of 
foreign language learning in the United States and on improving 
the Federal Government's foreign language capabilities in the 
year 2010.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davidson appears in the Appendix 
on page 82.
---------------------------------------------------------------------------
    As President of American Councils for International 
Education, I oversee programs focused on advanced and 
professional-level language acquisition at overseas 
universities and immersion centers funded both by the U.S. 
Department of State and the National Security Education Program 
of DOD, which contribute to the preparation today of more than 
1,750 Americans annually at the school, undergraduate, and 
graduate levels through programs sponsored by the State 
Department and the flagship DOD programs. These include work in 
languages such as Arabic, Chinese, Indonesia, Japanese, Korean, 
Turkic languages, Persian, Hindi, Russian, Swahili, Yoruba, and 
other languages. These are important programs, and they have 
been the target of research, which is reflected in two referee 
journal articles which I would take the liberty of leaving with 
you and your staff today so that I do not have to reiterate 
their contents right now but, rather, with your permission, I 
would like to turn directly to the research results and the 
recommendations that flow from that.
    The research has shown that language learning in the 
overseas immersion environment holds enormous potential for 
meeting the linguistic and cultural training needs for the 
government workforce of the 21st Century. But to function 
effectively, it must be properly integrated into K-12 and 
undergraduate curricula and adequately supported by faculties, 
administrators, policymakers, and funders. A sustained effort 
across government and the academy in support of world languages 
and cultures will necessitate a commitment at once to overseas 
language immersion as well as a strong focus on our domestic 
training capacity. The research data which I make available 
today makes it clear that a concerted effort in this area, 
first, is possible and, second, it can succeed and it is 
succeeding. That is the good news, and from that I would like 
to turn to the recommendations that flow from these two 
studies.
    The second study is the first-ever census of K-12 programs 
in the United States--not a survey, an actual census with a 
91.8-percent return rate. We established that there are 3,500 
K-12 programs in the United States as of May 2009 focused on 
the critical languages alone. That number exceeds by twice what 
experts in the field believed was the case, and, hence, I turn 
to the recommendations that flow from that research.
    The latest research provides us stronger and I think more 
optimistic assumptions about the role that U.S. education can 
play and should play in addressing the language gap in the 
Federal Government workforce capability:
    One, the assumption that Americans, in fact, are achieving 
professional-level proficiency--ILR-3 or higher in multiple 
skills--in these languages thanks to the National Security 
Education Program Flagship Program and its several feeder 
programs funded by more than one agency.
    Two, that young Americans are interested as never before in 
learning the critical languages, as is evidenced by the notable 
growth in K-12 programs that is documented here, especially in 
Chinese, Arabic, Japanese, Russian, and Korean across the 50 
States and the District of Columbia; and a corollary to that, 
that entering university freshmen are more internationally 
connected than ever before and have been reported in the 
College Board American Council on Education (ACE) Survey of 
2008 of having quite robust expectations of learning a foreign 
language, studying overseas, and pursuing an internationally 
focused career. What is needed then is a mechanism for growing 
greater public attention to the successes and proof of concept 
for U.S. success in this area which now exists. More U.S. 
students in institutions of all kinds can pursue long-term 
study of world languages, just as their counterparts do, as you 
mentioned earlier, Mr. Chairman, whenever you go overseas, just 
as other nations are investing in the same thing. That 
mechanism is both informational and also financial.
    The general lack of knowledge, unfortunately, at the State 
and local levels of how to plan and implement these programs 
needs to be addressed.
    The need for Federal support of proven models of long-term 
language proficiency also need to be addressed, such as the 
National Security Language Initiative (NSLI) complex of 
programs.
    And continued increased Federal support is necessary for 
essential overseas immersion.
    Your own legislation calling for the creation of a National 
Coordinating Council would be a robust and effective way of 
addressing that, as would be recent legislation that is being 
drafted by Congressmen Holt, Chu, and Tonko on the House side 
looking at a new reauthorization for the ESEA.
    Thanks very much, Mr. Chairman. I would be happy to respond 
to your questions later.
    Senator Akaka. Thank you very much, Dr. Davidson.
    Dr. Chu, the GAO report revealed that the Department of 
Homeland Security has not taken steps department-wide to 
address its language capabilities. In your testimony you stated 
that one of the valuable lessons learned from DOD's experience 
is that change requires strong leadership from the top.
    What recommendations would you make to Federal agencies 
like DHS on what is required to sustain and institutionalize 
continued leadership in language education?
    Mr. Chu. Mr. Chairman, I do believe, as you suggest, that 
it is critical that the Cabinet Secretary speak personally to 
this issue, not simply once but repeatedly, to make clear both 
publicly and inside the agency that this is a goal of 
importance to him or her.
    I further believe that it is important that he or she hold 
appropriate sub-Cabinet officers responsible for developing a 
specific plan of action, against which, of course, Cabinet 
resources must be applied.
    I think those three steps together will change the outcomes 
in any agency.
    Senator Akaka. Thank you. I appreciate that we have three 
panelists here who have extensive knowledge and experience on 
this issue and can probably give us the best answers as to how 
we should proceed.
    Dr. Chu, it is well known that effectuating change across a 
large Department like DOD is difficult. I am sure that during 
the time you served at DOD there were some challenges in 
pushing for increased foreign language, cultural awareness, and 
regional expertise capabilities. DOD has made great strides 
over the past several years, and yet there is still much to be 
done.
    What recommendations do you have for agencies that face 
similar challenges?
    Mr. Chu. I do believe, Mr. Chairman, that being flexible 
about how you achieve these goals will enhance the chances for 
success. Simply expanding existing programs may not be the best 
way to proceed, and certainly that was our conclusion at 
Defense--that we needed both some new program and some new ways 
of applying old programs.
    To take a specific example, the Department had long had a 
fine language instruction facility, the Defense Language 
Institute (DLI), but we found with demands post-September 11, 
2001, that simply ensuring a good flow of students to that 
institute was not enough, that we needed to take training to 
units, that DLI needed to help us make training portable, so to 
speak. So we brought the training to the soldiers, the marines, 
etc., who would need it. It is both improving or changing the 
nature of existing programs that will be helpful, in my 
judgment, as well as being willing to imagine new programs, 
different ways of achieving the same ends. I particularly 
praise the U.S. Army for its flexibility in finding new ways to 
recruit native and heritage speakers.
    Senator Akaka. Dr. Brecht, you paint a vivid and optimistic 
picture of what Federal language skills should be. In your 
testimony you envision a globalized workforce as the end state 
for the Federal workforce and discussed how this workforce 
should be comprised. How do we engage other Federal leaders to 
make them better aware of the importance of language and 
cultural proficiency and be willing to work toward this 
globalized workforce?
    Mr. Brecht. Optimism is in my nature, Mr. Chairman. Fifty 
years of work in this area, though, does not exactly encourage 
optimism. But I believe we have reached a point where making 
arguments for the need for language basically is old-fashioned.
    The Department of Defense did not launch the transformation 
roadmap out of a sense of altruism or a belief in languages for 
the good of all. It was a pragmatic decision based on clear 
needs that they did that. And, frankly, looking at the 
Department of Homeland Security, I view it the same way.
    If you actually stand back and ask each component to look 
at what its language requirements are, how do you do a language 
audit--and industry, by the way, has different models for doing 
audits of major industry corporations. If you actually look at 
your language requirements and you look at what your 
capabilities are and you saw that delta, and any leader looking 
at a rigorous way to assess the requirements and the 
capabilities and looking at that delta, it does not make much 
sense to me to stand back and say we have to make an argument 
for that. A leader has to recognize that. And in this case, I 
do not know very many elements of the U.S. Government, State 
and local included, that do not see the need for language. What 
I fear is they often view it as difficult or impossible to 
address, and that is a prioritization issue, to be sure, but in 
my view, if you just look at the requirements and you look at 
them carefully, the notion that, for instance, the African 
command in the Department of Defense, when they look at 2,000 
languages in Africa, they look at what they have to address in 
areas of counterterrorism or humanitarian assistance or 
professionalization of security forces and so on, if you talk 
to the commander of the African command, he will tell you, ``My 
language needs are incredible.'' He does not have to be hit on 
the head with it at this stage. And so it is, for example, with 
the Department of Justice and across the Federal Government. It 
is clear that need has emerged now in this century. English is 
not the answer. Most people understand that. English is an 
immense capability. It is not the answer.
    And so what I would like to be candid about is your 
legislation: Putting all of the departments in one room so that 
the people who clearly see and have made this assessment can 
share that vision or at least the methodology to arrive at that 
vision, I think that is exactly the right way to go.
    Senator Akaka. Well, since I have asked that question, let 
me ask Dr. Chu whether he would want to comment on how to 
engage other Federal leaders as well. And I will ask Dr. 
Davidson as well. Dr. Chu.
    Mr. Chu. I think as Dr. Brecht has suggested, there is 
enormous interest at different levels in each agency in 
improving our language capacity. The challenge is how to get 
the agencies together to provide a forum. As you heard from the 
previous panel, there are some informal mechanisms, but it is 
very helpful to have a more formal mechanism, especially one 
endorsed by senior levels of the Federal Government.
    You, sir, in your opening statement praised the National 
Security Language Initiative of the last Administration. I do 
think, as Ms. Weaver indicated, it would be terrific to give 
that new impetus and energy. I think the fact that you are 
holding this hearing is succeeding in connecting the Department 
of Homeland Security with the Defense Department and those that 
are already its partners.
    I do believe, however, some formal convening of Federal 
agencies, whether a few, as the National Security Language 
Initiative sought to do, or many, as your Coordinating Council 
would imply, would be very powerful in improving the Federal 
effort as a whole.
    Senator Akaka. Dr. Davidson, any comments?
    Mr. Davidson. Yes. The need to mobilize support across 
government agencies is really very evident, even beyond those 
that you have discussed here today. In particular, if one looks 
at the statement of President Obama reflected in the important 
National Security Strategy document released at the end of May 
2010, as well as Secretary Duncan's statements in the Education 
Department on the importance of language, there is a sense 
almost of disconnect between the rhetorical direction of our 
President's National Security Strategy, which is very 
consistent with the National Security Language Initiative we 
have been discussing here today, and the actual implementation 
and fair share in all of this that our own Department of 
Education should be playing.
    There are some important programs like Foreign Language 
Assistance Program (FLAP). They are quite small compared to 
what other agencies have done, and we are distressed, for 
example, that in the President's version of the reauthorization 
of elementary and secondary education, we see language again 
shunted off a bit like others here today as sort of a well-
rounded--something you might have for a well-rounded education 
along with other frills, but not as something core and central 
to American national security going forward, our 
competitiveness and our ability to communicate with one 
another.
    So I think there is a need for a strong voice here that 
would bring on the implementation level the work of the 
Department of Education with what clearly the President, I 
think, envisions.
    Senator Akaka. As you know, the National Foreign Language 
Coordination Act, which I originally introduced in 2005, is 
based on the recommendations that came out of the 2004 National 
Language Conference, and some of you have commented on my bill. 
I would like to hear more about your views on that bill, in 
particular any changes that you would recommend be made. Dr. 
Brecht.
    Mr. Brecht. Yes, I would like to take the opportunity in 
that regard. Dr. Davidson made it very clear that the future of 
our language capabilities in the Federal Government at this 
stage seem to be envisioned as the responsibility of those 
agencies. In fact, the future of language capability in the 
United States is a responsibility of education, K-12 and higher 
education. And so it is very clear to me that education itself 
and academe have to be included in any coordination.
    I will say also that some of the finest technologies, some 
of the finest language preparation materials and so on, 
industry is honing. And so I believe as well that industry 
should be represented in any coordination effort. It has to 
take all of us together, and so the only thing I would 
respectfully submit is that having all the Federal agencies 
represented is excellent, but some way to bring in the academic 
enterprise as well as industry would make--it would make it 
even a stronger initiative.
    Senator Akaka. Dr. Chu.
    Mr. Chu. Mr. Chairman, I would raise two issues that you 
may wish to consider to strengthen the bill.
    First, are there any authorities that you want to give the 
council besides the general responsibility of coordination 
across Federal agencies, whether that is authority to review, 
authority to approve certain initiatives, etc.?
    Second, I think it would be very useful, without 
necessarily specifying in the law what the metrics are, to 
insist that metrics be established against which to measure 
progress. I think certainly if I look to the Defense 
experience, that was very powerful in the roadmap that the 
Deputy Secretary directed be prepared, that we had benchmarks 
we had to meet, timelines, quantitative outcomes we had to 
achieve. And I think that will help drive progress further--
simply, for example, inviting the council or the President to 
establish those metrics may be sufficient in the bill that you 
are proposing.
    Senator Akaka. Dr. Davidson.
    Mr. Davidson. I wholeheartedly concur with what my 
colleagues have said. In my written testimony I do offer five 
possible areas where the national strategy might be elaborated 
somewhat more. I think the direction is exactly the right way 
and that a national strategy is exactly what is called for 
here. I think I will leave it at that and just refer to the 
five points I make in the written testimony.
    Senator Akaka. I want to ask the panel to respond. As you 
know well, one of the key recommendations that came from the 
conference recommended that a national language authority be 
appointed by the President to serve as a principal adviser and 
coordinator in the Federal Government and to collaborate with 
the public and private sectors. My bill would place the 
national language adviser in the White House to facilitate this 
type of coordination and collaboration.
    Could you address why a coordinator who is able to reach 
across the government and work with all sectors is needed?
    Mr. Chu. Mr. Chairman, my colleagues have, I think, 
eloquently emphasized--and certainly that is the experience of 
Defense--that if we are going to make major progress, we need 
to address the degree of language effort at the K-12 level. And 
I think that is really the issue that you are inviting be 
confronted by proposing a national language authority. It is 
not just a Federal function. In fact, in some respects, it is 
not even principally a Federal function. It is a national 
necessity that we do better on this front, and only with the 
partnership of State and local authorities in my judgment are 
we likely to succeed. So my view of the vision you have 
outlined is that where we are very powerful is in mobilizing 
that national constituency.
    I do think in doing so this notion of roadmaps that the 
States construct could be a very helpful particular step, and 
so one possible function for a national language authority 
would be to encourage the preparation of such roadmaps and to 
provide a forum in which the progress against the goals they 
set could be reviewed.
    Senator Akaka. Dr. Brecht
    Mr. Brecht. I think there is a nice model, the Office of 
Science and Technology Policy in the White House. Its mandate, 
it seems to me, is broader. Now, I will not testify to its 
efficiency because I am not entirely sure how the science 
community views it, but the fact that it is a bully pulpit, 
first, is very important; the fact that it has education as 
part of its mandate; the fact that research itself is part of 
its mandate, together with how the U.S. Government adopts and 
how technology transfer takes place--all of that strikes me as 
a very broad mandate. And if I were in power, an Office of 
Language and Global Communications with the same power and 
mandate would be a very fine thing.
    Again, though, your council strikes me as an implementation 
of that, and then the national language coordinator is the 
science adviser, the equivalent of the science adviser.
    Senator Akaka. Dr. Davidson.
    Mr. Davidson. I strongly agree with that. I think in 
looking at the way that John Holdren functions as National 
Science Adviser, you see a strong voice and a mobilizing factor 
there that does reach across private, public, and various 
sectors. The difference, I think, is that science on some level 
has a face validity across the country. It is not hard to get 
up in front of a local board of education and argue that we 
need to strengthen science and technology. Every businessperson 
in the room would rise. But with language, we have a tougher 
argument because of America's long-time landlocked status that 
outside the Beltway, once we get beyond the foreign affairs 
international community, we have a somewhat different discourse 
to deal with. And the sort of level of public awareness is not 
as sharp for language as it is for science and math. So I think 
that there is a strong public awareness factor that we have to 
bring in. In Hawaii, it is not a problem for obvious reasons, 
but in other parts of the country, we have a lot of work to do.
    Senator Akaka. Yes. Dr. Davidson, let me ask you, what 
suggestions do you have for what the Federal Government can do 
to encourage foreign language education at all levels?
    Mr. Davidson. A strategy for foreign language education 
that includes two things that has a strong informational 
component, as we have just been speaking, so that people 
understand better on the local level and on State levels, too, 
and on the institutional level how a foreign language learning 
career might look. Just as we might have an understanding of 
what a well-defined mathematics education might look like, we 
need something similar for foreign language, which, in fact, is 
known by specialists but less understood locally. So the first 
Federal role is most certainly to disseminate an information 
model.
    The second one, I think, is a strong model for support of 
those key junctures in an educational career where the need to 
get overseas, the need to experience the other culture 
firsthand in an emergent setting, particularly at an early age, 
can be critical in shaping that career in a successful way.
    Again, we know the models. They are multiple. They work 
well. The practices are well defined. They are not well known. 
But there is a role for Federal intervention here, both on the 
information side and on the funding side. The Flagship Program 
exists right now only on about 22 campuses across the country, 
including Hawaii, Ohio, Michigan, Texas, and so forth. We have 
no more than two programs per campus, most of them fewer than 
that. And yet those programs are already producing right now 
people who go--65 percent of whom go right into government 
service with three level qualifications or better.
    So even as the educational system is retooling and getting 
stronger, we have a mechanism in place that will make sure that 
the government also has qualified people this year and next 
year and then the year after that. And the problem is it is a 
tiny model of 22 institutions that could easily be scaled up, 
at least to the size of Title VI, and give us the numbers we 
need now.
    Senator Akaka. Dr. Brecht.
    Mr. Brecht. May I comment on that question?
    Senator Akaka. Yes, go ahead.
    Mr. Brecht. If I may. That is exactly right. The Flagship 
Program is doing amazing things in higher education. It is sad 
that this is a Department of Defense initiative and not a 
Department of Education initiative. And so the first thing that 
has to be done is that language has to become part of the 
education mandate, not national security mandate. And right 
now, frankly, language is a national security issue not an 
education issue.
    The second point I would make is that Secretary Riley and 
President Clinton--Secretary Riley in the last few months of 
his tenure recognized dual language immersion programs as one 
of the most remarkable things that could happen in this 
country. If we have schools, elementary schools where children 
are learning in English for half the day and Hawaiian for the 
second half the day, and half the students have a native 
language in English and, God willing, even in Hawaiian, if we 
have dual language immersion programs across the country to 
demonstrate that children actually can learn a language, they 
can learn a language effectively, you do not have to add 
language teachers, you simply have to find teachers who teach 
elementary education who know language--if we launched that in 
50 States with $40, $50 million and showed that it can be done, 
that is a way to feed into the flagship programs where they 
could even do better.
    And so there are models out there, though it does require 
that education be the home of language in the United States.
    Senator Akaka. Thank you. If there were only three things 
that we could accomplish this Congress that would address the 
Nation's overall language needs as well as Federal agencies' 
language shortfall, what should those three things be? This 
will be the final question. [Laughter.]
    Mr. Brecht. That is a good final question.
    Mr. Chu. We get three wishes.
    Senator Akaka. Dr. Chu.
    Mr. Chu. I do think bringing your bill to a successful 
conclusion would be one of them.
    Second, I think, as my colleagues have implied, funding K-
12 so-called pipeline programs as an education initiative would 
be a second element.
    Third, I think the Federal Government would help the 
country if it signaled in some fashion the importance of high-
level language accomplishment as a national goal. And perhaps 
the establishment of some prizes that identified successful 
Americans of the types that Dr. Davidson and Dr. Brecht have 
described might be one way to send to the Nation the kind of 
message that you are attempting to impart.
    Senator Akaka. Thank you very much. Dr. Brecht.
    Mr. Brecht. It is kind of a difficult question. I am going 
to have to go with the notion that if the Federal Government 
had a bully pulpit at a coordinating council, that would be a 
major statement--that had education and industry on it, that 
would be a major statement to the country, where real needs are 
present and recognizable.
    The second thing--and I am afraid it is going to sound 
rather repetitious--is we have to do something to get the 
Department of Education to fund major programs, preferably at 
the K-12 level, and I frankly think dual language immersion is 
one of the most remarkable things we could do.
    And, third, I will say in education, again, the Flagship 
Program of the National Security Education Program is one of 
the most remarkable things I have ever seen because it is 
accountable, it is reaching levels that we have never reached 
before, and it is getting language into the hands of 
professionals, not just language and literature majors. That is 
an amazing statement to the higher education and education in 
general and very much needed by this country.
    So those are my three wishes.
    Senator Akaka. Thank you very much, Dr. Brecht. Dr. 
Davidson.
    Mr. Davidson. I am afraid we sound a little similar here, 
but the research would similarly point to something like this, 
that the innovation in language draft legislation that 
Congressman Holt and Congressman Chu from California and Paul 
Tonko from New York have put together reflects some of the best 
thinking in the field right now in terms of what the language 
component of a reauthorized Elementary and Secondary Education 
Act might look like. As Dr. Brecht and Dr. Chu have said, it is 
not terribly pricey, but it would address in a fundamental way 
the K-12 issue, including dual immersion. And we have to do 
something in any event there.
    Second, I think a scale-up of Flagship that would enable 
our undergraduate programs to begin to refocus their training 
in anticipation of the new flows of K-12 students coming in and 
not starting language all over again in college but, in fact, 
would begin their work at the advanced level and move up from 
there. And I think that is what I mean by a scale-up of 
Flagship. Move it to a number that meets government needs.
    And, third, enact the Senator Akaka bill for a national 
strategy and coordination so that the whole thing would be 
managed and coordinated as necessary. I think that is all you 
need to do.
    Senator Akaka. Thank you very much for your responses. As I 
said, we are so fortunate to have this panel of witnesses who 
have the experience in this area. I want to thank you immensely 
for your responses.
    It is clear that the Federal Government cannot resolve its 
need for employees proficient in critical foreign languages on 
its own. We need a coordinated effort among all levels of 
government, private sector, and academia to address our 
language needs. We have a lot of work to do in this area, and I 
remain committed to this issue.
    The hearing record will be open for one week for additional 
statements or questions other Members may have. This is a 
critical issue and I want to tell you that for me your 
responses have been valuable, and it is going to help us move 
forward.
    Mr. Chu. Thank you.
    Mr. Brecht. Thank you.
    Mr. Davidson. Thank you.
    Senator Akaka. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 4:16 p.m., the Subcommittee was adjourned.]

















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
